1

Nr

6

20-5
No.

r

r -\

r

f: y,
s ‘ ;

i ■

!

I

i ms?

IN THE
SUPREME COURT OF THE UNITED STATES

IN Re DAVID LYNN MOSS

uIM-_Plprk

— PETITIONER

(Your Name)
vs.
T.HE STATE OF TEXAS

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

THE COURT OF CRIMINAL APPEALS OF TEXAS

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

DAVID LYNN MOSS

(Your Name)
3 B 7 2 F.M. 350 SOUTH

(Address)
LIVINGSTON. TEXAS 77351
(City, State, Zip Code)
N/A

(Phone Number)

Lmj

%

QUESTION(S) PRESENTED

AState Court of last resort decided an- important question of law
in a way that conflicts with relevant decisions of this court.
This court decided Lafler V Cooper, in March of 2012, following the
filing of my initial habeas application. An application for writ of
Habeas Corpus was filed challenging this error that occurred in
this case but was dismissed, because it was not presented in the
initial application, recently in Chaidez \I United States, was
decided by this court inwhich it was stated that this tafler V.
Coopery did apply retroactive because it was simply a garden-varity
of Strickland \l Washington, which now brings the following question;

Whether or not the Court ofsCriminal^Appeals^decisions was .contrary
to a decision by the Texas Code of Criminal Procedure, also by
this court court court on the review of a rule the did not exist
at the time of an initial application ? Also was the court's
decision contrary to clearly extablished law.

I

**

LIST OF PARTIES

[x] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

II.

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

CHflDIZ \l UNITED STATES, 563 U.5.342,1 33 S . Ct .11 D3 (2.013 j___

a • •

5

EX PARTE CASEY TYRONE SLEDGE, 391 S.liI,3d.1Q4(Tex,Crim.App2D13)

5

HILL 1/ lcckhart ,474 U .5.52,59(1 985)

7

LflFLER V COOPER,566 U. 5.1 56,1 32 S . Ct .1376(201 2),,

5

STRICKLAND 1/ WASHINGTON,466 U.S,663,1 04 S . Ct. 2059 (1 984) ... .
S-UFFLE V PARKS, 4 94 U.S.484

.,,t5

S

TEAGUE \l LANE,489 U.S..28B,109 S . Ct „ 1 259 (1 989 )

STATUTES AND RULES
TEXAS CODE DF CRIMINAL PROCEDURE ART, 11.07 sect (4)

OTHER

III.

5,7

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

5.

CONCLUSION

, . 7

INDEX TO APPENDICES
APPENDIX A

CARD FROM THE COURT OF CRIMINAL APPEALS DISMISSING
THE APPLICATION WITHOUT A WRITTEN ORDER.

APPENDIX B

THE STATE HABEAS COURT FINDINGS

APPENDIX C

DISMISSAL OF TIMELY FILED MOTION FOR REHEARING.

APPENDIX D
APPENDIX E
APPENDIX F

IV.

IN THE
AT OF THE UNITED STATES
- iTION FOR WRIT OF CERTIORARI
sillily prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
E xl For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix A
to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
is unpublished.
The opinion of the —
appears at Appendix

STATE
B

HABEAS

COURT

to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[x ] is unpublished.
1.

court

to

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[x ] For cases from state courts:
The date on which the highest state court decided my case was - 5/6/202a
A copy of that decision appears at Appendix fl
[x] A timely petition for rehearing was thereafter denied on the following date:
.1111 V 9. 201 6
and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a),

2.

ORY PROVISIONS INVOLVED

\
\v

CONSTITUTION:
\rmed

-c'he

right

to

of

the

accusation,7

the

:i:

counsel.

ARTICLE 11.04:

11 .07 Section 4 bars a court from
considering the merits of a subsequent application challenging
the same conviction unless the application states sufficient
facts

estab.ishing

one

legal

basis

for

the

application

was

filed.

of

the

claim was
Tex.

following:
unavailable

Crim.

3.

(1)

Proc.

the

when

Code

factualoo r

the

art

previous

11.07

§4(a).

STATEMENT OF THE CASE
Petitioner is applying this coarts decision to an issue that
occurred prior to the start of his case. There were plea offers
made by the prosecutors that counsel (George Ashford) did not fell
Petitioner about, but peirjured himself in an affidavit claiming
he did. During the start of the trial the court asked had their
been any offer's made, The p r o s e c utoii-, stated yes, a’ 30-year offer
which I was never informed of, which the attorney admitted at that
time he never informed petitioner about. The court gave petitioner
a few minutes to consider it. During that time counsel is aid! ttiat,
he never informed me because he knew he would be able to beat the
case,

so I rejected the officer based on the counsel's claim.

It was later asked by the complainant why I didn't take the 15,
year offer, I told her that I was not aware it existed. A copy of
the trial record is being presented as Appendix K. Petitioner sou­
ght relief from the court fallowing the announcment of Lafler V
Cooper, and the Court of Criminal Appeals of Texas denied relief
as'-barred by Tex.. Code Crim. Proc. art 11.07 sect §4. Recently the
petitioner discovered the case did apply as a watershed rule, when
he read Chaidez V United States, which petitioner challenged the
court mistake of the law, but the court dismissed it again, the
issue could not have been presented in the initial application
because this court had not decided the case. The United states
Supreme Court did not decide Lafler V Cooper until 2012,

after his

initial writ was denied, and his case under review in thi court.

4.

REASONS FOR GRANTING THE PETITION
A court abuse by definition abuses its discretion when it
makes an error in law as here.

Its clear there was noway perition-

er could have challenged this issue in his initial application
because bafler V Cooper,566 U.S 156,1 32 S.Ct.1 376, had not been
decided, also petitioner case was pending on federal review on
other issues. The State Haveas Court recommended the application
be dismissed, because L; a flex V Cooper didn't apply. In Chadiz V
United States, 568 U.S.342,133 5.Ct. 1.1 03(201 3) it was stated that
Lafler V Cooper , was simply a garden-varity of Stickland V Wash­
ington,466 6 U.S.668,104 S.Ct.2052(19B4) which did not
law, nor was it a new law.

-change any

Lafler V Cooper came within the extreme

narrow exception for a watershed rule of criminal procedure im­
plicating the fundamental fairness and accuracy of the criminal
proceeding, because the rule was procedual , not"’ subs tan give

r'. v.i ,

the';issue presented here is a reflection of another case decided
by this court, - see Suffle V Parks,494 U.S.484; which quoted Tgague
V Lane, 439 U.S. 288,1 09 S.Ct.1259,108 L.Ed 2d 41 5 (1 989 ).
DID THE STATE HABEAS COURT FINDINGINGS C0MFLICT WITH ANOTHER STATE
COURT DECISION INVOLVING THE SAME SITUATION ?
I n r. Ex: parte Casey Tyrone Sledge ,391 S . Id . 3 d 104(Tex.Crim.App.2013)
it was noted that,

"if an applicant can invoke a legal basic for

relief that was unavailable at the time of his inital post-convic­
tion writ application, the applicant may ouercome the sect 4
statutory bar. Tex.Code Crim,Proc.art 11 .07 §4(1 ) (2)’!. Applicant
in this case had established that the legal basic was not recog-

5.

nized by and could not have been formulated from a final decision
of the United State Supreme Court, a court of Appeals of the United
States ,

or a court of appellate jurisdiction of the state of Texas

on or before the date of the application. Teague made it clear a
case does not announce a new rule when itnis mearly an application
Df the principle that governed a a prior decision of a different set
iV'j< :

of facts. 489 U.S.,at 307, 1 09 S . Ct.1 060,1 03 L.Ed.2d 334 ."
In this case the state court decision violate clearly established
federal lay . This court previously rejected an argument advanced by
the

Solicitor General that the Sixth Amendment did not extend to

advice about a plea offer because it did not impact the fairness of
the trial , noting that "Where ue merely apply Strickland in a way
that correspond to an evolution in professional norm, ue make no
neu 1au

'■

Petitioner stated in his application for habeas relief in

the state court that if not for counsel's advice, he uould not have
rejected the plea offer, also had counsel actually informed him of
the 15-year offer he uould not have turned it doun because of the
fact that he had prior offenses.

The records shou could admited

that he never told me about an offer of 30-years, and uith the time
the court gave petitioner to discuss it,

:his defense counsel;told

him not to take it. Its clear that petitioner did not knou about
the plea offer, and uould not have took time to discuss it;if he
uas not going to consider it.

It uasn't until the end of the trial

that the complainant's mother, and the complainant told me that
there had been an offer for 15-years, and for 25-years, uhich the
prosecutor that uas on the case at that time told them It uas iriot
accepted, but the fact is it uas never relayed to petitioner.
6

, Petitioner is asking this Honorable Court to consider the question
of whether the state court decision a violation of their own law
as governed by Texas Code of Criminal Procedual art. 11.07 Sect §4.
Also was the decision "contrary to..,clearly established federal
law'? ,

because the state co'urt was confronted with facts that were

materally indistinguishable from a relevant Supreme Court precedent
but arrived at a different result. The factual issue presented here
is also relevent to this court decision in Hill U lockhart,474 U.S.
52,59(1985).

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

August 3,

2020

7

APPENDIX

(A)

CARD FROM THE COURT OF CRIMINAL APPEALS
DISMISSING THE APPLICATION WITHOUT A WRITTEN ORDER

